Supreme Court, U.S.
: filed

~ 6 2019
OFFICE of THE CLERk-

No.
In The
SUPREME COURT OF THE UNITED STATES
LINDA BOLTON ET AL.
Petitioner (s),
.

y

v.

UNITED STATES OF AMERICA,
Respondent (s)..............
ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS FOR
THE FIFTH CIRCUIT
PETITION FOR WRIT OF CERTIORARI

LINDA BOLTON
920 South 34th Avenue
Hattiesburg, MS 39402
. Petitioner, Pro Se

July 15, 2019

CHARLES BOLTON
C/O Linda Bolton
920 South 34th Avenue
Hattiesburg, MS 39402"
Petitioner, Pro Se

QUESTION(S) PRESENTED
1. Whether tax prosecutions can be now be
authorized by the Commissioner of the Internal
Revenue Service for investigation by a grand jury
and approved for prosecution instead of the
Department of Justice as required by statute,
creating a new and dangerous legal precedence,
resulting in convictions and sentences including
orders for terms of imprisonment in this case,
that are neither supported by statute or
prevailing case law?
2. Whether the convictions in this case, which are
based on perjured witness testimony, can stand
when that perjured testimony is directly related
to suppression of evidence by the Government in
violation of Maryland vs. Brady, and this court’s
ruling in Napue v. Illinois, 360 U.S. 264 [1959], and
that would allow a criminal defendant to be convicted
based on perjury that the prosecution fails to correct,
and in violation of the Petitioners constitutional
rights to due process under the Fifth and
Fourteenth Amendments of the Constitution?
3. Whether the District Court can develop its own
elements for tax evasion by mixing elements from
multiple circuits which changes the required
statutory elements and does not mirror Fifth
Circuit elements for tax evasion just for
Petitioner’s case and bias Petitioners case by
using different legal standards than other
Petitioners in the Fifth Circuit violating
l

Petitioners’ rights to due Process under the Fifth
and Fourteenth Amendments of the Constitution,
and impacting tax evasion judicial proceedings
for all circuits; and whether a conviction for
Section 7206 (l) can stand when the government
omitted a required statutory element for
conviction from indictment and trial by omitting
a “materiality” element, resulting in guilty jury ;
verdict, and that the Fifth Circuit omitted from
its opinion since the government omitted it, and
violating Petitioners’ Fifth and Fourteenth:
Amendments of the Constitution and creating a
new and dangerous legal precedence for Section
7206 (1) cases?

u

LIST OF PARTIES
Charles Bolton, Petitioner, Pro Se
Linda Bolton, Petitioner, Pro Se
Petitioners were defendants-appellants below.
Solicitor General of the United States
United States Department of Justice
950 Pennsylvania Ave. N.W.
Washington, D.C. 20530
LIST OF PROCEEDINGS BELOW
l) United States District Court for the Southern
District of Mississippi, Eastern Division
William M. Colmer Federal Building & United
States Courthouse
701 North Main Street, Suite 200
Hattiesburg, MS 39401
United States of America v. Charles and Linda
Bolton
Case Type Criminal:
Case Number: 2:i6-cr-00007-KS'MTP
Final Judgment Issued on March 28, 2017
2) U.S. Court of Appeals For The Fifth Circuit
600 Camp Street
New Orleans, LA 70130
Clerk's Office:
U.S. Court of Appeals For The Fifth Circuit
600 S. Maestri Place
m

Suite 115
New Orleans, LA 7013
United States of America v. Charles and Linda
Bolton
Case Type Criminal:
:
Case Number: No. 17-60502 consolidated with 17
60576
Final Judgment Issued on October 26, 2018

IV

TABLE OF CONTENTS
Page(s)
QUESTIONS PRESENTED

1

LIST OF PARTIES

m

LIST OF PROCEEDINGS BELOW

111

TABLE OF AUTHORITIES

x

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND
STATUTORY PROVISIONS INVOLVED

1

I. STATEMENT OF THE CASE

5

II. THE INDICTMENT

7

III. THE TRIAL PROCEEDINGS

16

IV.WILLFULNESS/JURY INSTRUCTIONS
PROVIDED BY THE DISTRICT COURT WERE
ERRONEOUS
17
V. THE GOVERNMENTS EVIDENCE DID NOT
PROVE BEYOND A REASONABLE DOUBT AN
AFFIRMATIVE ACT OF COMMISSION
CONSTITUTING AN ATTEMPT TO EVADE
TAXES OR WILLFULLY FILE A FALSE
RETURN
23
v

VI. SENTENCING ERRORS

31

VII. OPINION OF THE FIFTH CIRCUIT
REGARDING THE DISTRICT COURT’S
DENIAL OF THE FBI 302 REPORT AS
BRADY MATERIAL WAS ERRONEOUS ..... 33
VI. REASONS FOR GRANTING
THE PETITION....................

39

VII. CONCLUSION

40

TABLE OF APPENDICES
Page(s)
Appendix A The October 26, 2018,
Fifth Circuit Court of Appeals
Opinion and Judgment.............
Appendix B October 26, 2018 Fifth Circuit
Order Granting the Government’s
October 24, 2018 Motion to Correct
October 23, 2018, Modified
Opinion............. ......................................

la

45a

Appendix C The October 23, 2018
Fifth Circuit Court of Appeals
Modified Opinion to Correct October 18, 2018,
47a
Opinion
Appendix D Fifth Circuit Court of Appeals
Decision dated October 18, 2019............
vi

49a

Appendix E June 28, 2017 Memorandum
and Order United District
Court of the Southern District
of Mississippi Be It Remembered
Reinstating PSR Objections.................

93a

Appendix F The December 7, 2018,
Fifth Circuit Court of Appeals Order Denying
Panel Rehearing................................................... 96a
Appendix G October 26, 2018 Fifth Circuit
2nd Modified Opinion and Final Judgment(s)
Orders as to Charles and Linda Bolton.......... 98a
Appendix H October 22, 2018, Motion Filed
By the Government with the Fifth Circuit
Requesting the Court Correct Statement
In its October 18, 2018, Opinion
as to Bra dy Violation
and FBI 302 Report........................................

104a

Appendix I April 4, 2017 Department of
Justice Memorandum Re^ Recusal
of the United States Attorney
For the Southern District of
Mississippi.............................................

109a

Appendix J Excerpt Special Agent Report
Proving No Relevant and Earnings
Used in Normal Course of Business......

118a

Vll

Appendix K Excerpt Special Agent Report
Proving No Relevant and Earnings
Used in Normal Course of Business.......

120a

Appendix L John Lee Unsealed Plea Deal

122a

Appendix M Defendants’ Motion to
Supplement..................................

139a

Appendix N April 16, 2018 5th Circuit
Order granting Mr. Bolton’s Motion to
Supplement the Record to include the
John Lee Plea Deal................................

146a

Appendix O Public Records (Transcript)
of Attorney John Lee Sworn Testimony
Attesting to His Guilt of Tax Fraud
And that Only He and Accountant
Carl Nicholson (Not the Boltons)
Aided and Assisted Each Other
in the Preparation of Lee’s Fraudulent
Returns........................................................

150a

Appendix P Petitioner’s Application
for Extension of Time Feb 25, 2019

154a

Appendix Q Oct 22 and 24, 2018 Email
From the Government to Parties
Attempting to Administratively
Correct the Fifth Circuit Opinions
Issued in this Case That Falsely
Asserted No Brady Violation
As to an FBI 302 Report Because
vni

The Report was Provided to Petitioners
When It was Not.............. ........................

164a

Appendix R Excerpt of Appellant’s
Brief Documenting Petitioner’s Briefing
of Constitutional and Brady Violations :
to 5th Circuit (including Suppression
:
of the John Lee Plea Deal), Directly
Refuting the Erroneous: Opinions
Issued by the 5th Circuit of October,
18, 23 and 26; 2018, falsely Ruling
this Issue Was Not Briefed and
Falsely Asserting It Was, Therefore
Waived
...:166a
Appendix S 28CFR§0.70 .

: ix

168a

TABLE OF AUTHORITIES
Page(s)
Brady v. Maryland, 373 U.S. 83
(1963) ................. ....................

passim

Burks v. United States, 633 F.3d 347

(5th Cir. 2011) .......... .... .

26, 29, 30

Cheek v. United States

111 S. Ct. 604 (1991)

18, 19, 25

Crawford v. Washington, 541 U.S. :
36 (2004) ....... ................ ............
Garner v. Louisiana, 368 U.S. 157
164(1961) ...................... .........

17

13, 26

Gigho v. United States, 405 U.S. 150 (1972) .....3, 34, 36

;

Jones v. Thomas, 491 U.S. 376 (1989) :..

27

Jones v. United States, 527 U.S. 373 (1999)

23

Kyles v. Whitley, 514 U.S. 419, 433, 115 S.Ct
: 1555, 131 L.Ed.2d 490 (1995) .....................

33

Mackey v. Lanier Collection Agency & Service,
■!;: Inc., 486 U.S. 825 (1988) ............ ...... ......

x

.12

Marinello v. United States ofAmerica,
839 F.3d 209 U.S (2018)............ ....

13

Marx v. General Revenue Corp.,
568 U.S. 371 (2013) ..............

12

Napue v. Illinois, 360 U. S. 269 (1959)

2, 3, 38

Perez v. United States, 312 F.3d (5th Cir. 2002) ....24
Scar v. Commissioner, 814 F.2d 1363
(9th Cir. 1987) .................................

24

United States v. Adams, 314 Fed. Appx. 633
24, 25, 27
(5th Cir. 2009)
United States v. Agurs, 427 U.S. 97
(1976)............................................ ■

2

United States v. Allen, 892 F.2d 66
(10th Cir. 1989) ..........................

14, 23, 28

United States v. Bagley, 473 U.S.
667 (1985) .................................

2

United States v. Bishop, 264 F.3d 535
(5th Cir. 2001) ................................

26

United States v. Cardinas Garcia, 596 F.3d 788
(10th Cir. 2010) ..................................................

23

United States v. Chagra, 807 F.2d 398
(5th Cir. 1986) ......................... ........

22

xi

United States v. Citron, 783 F.2d 307
(2d Cir. 1986) ..................................

5

United States v. Dale, 991 F.2d 819
(D.C. Cir. 1993) ..........................

5

United States v. Fairley, 880 F.3d 1918
(5th Cir. 2018) ...................................

28

United States v. Gaudin, 115 S.Ct. 2310 (1995) ....13, 14
United States v. Jicarilla Apache Nation,
564 U.S. 162(2011) .............................

12

United States v. Jose Latorre-Cacho, 874 F.3d 299
(1st Cir. 2017) ............. ............................................ 23
United States v. Kaiser, 893 F.2d
1300 (11th Cir. 1990) .............

5

United States v. Lodwick, 410 F.2d 1202
(8th Cir. 1969)........................................

5

United States v. Lueben, 838 F.2d 751
(5th Cir. 1988) ..................................

14

United States v. Marashi, 913 F.2d
724 (9th Cir. 1990) .....................

24

United States v. McGhee, 488 F.2d 781
(5th Cir. 1974) .....................................

15

United States v. Phea, 755 F.3d 255
(5th Cir. 2014) .............................

22

Xll

United States v. Samara, 643 F.2d 701
(10th Cir. 1981)..................................

13

United States v. Simkanin, 420 F.3d 397
(5th Cir. 2005)........................................

18

United States v. Stanfa, 685 F.2d 85
(3d Cir. 1982) .................................

27

United States v. Swenson, 894 F.3d 677
(5th Cir. 2018) ...................................

33, 38

United States v. Threadgill, 172 F.3d 357
(5th Cir. 1999) .........................................

12, 15

United States v. Weinstock, 231 F.2d 699
(D.C. Cir. 1956) ......................................

14

United States v. Williams, 875 F.2d 846
(11th Cir. 1989) ....................................

24

Wheat v. United States, 486 U.S.

153 (1988) ...........................

22

White v. Ragen, 324 U.S. 760 (1945)

2

Constitutional Provisions, Statutes, and Regulations
V Amendment to the U.S. Constitution.,.1, 22, 29, 31
VI Amendment to the U.S. Constitution
XIV Amendment to the U.S. Constitution
xm

1, 3, 15
1, 32

26 U.S.C. §6212

24

26 U.S.C. §7201

passim

26 U.S.C. §7206 (1)

4, 10, 11, 13, 15

26 U.S.C. §7206 (2)

10, 11

26 U.S.C. §7207

4

28 U.S.C. §1254(1)

1

28 C.F.R.70

8, 9
17

Fed. R. Evid. 804
OTHER AUTHORITIES
Antonin Scalia & Bryan A. Garner,
Reading Law 180 (2012) ........

xiv

13

1
PETITION FOR A WRIT OF CERTIORARI
Petitioners Pro Se Linda Bolton and Charles Bolton
(collectively, “petitioners”) respectfully petition for a
writ of certiorari to review the judgment to the Fifth
Circuit Court of Appeals.
OPINIONS BELOW
The Fifth Circuit Court of Appeal opinions subject to
this petition are provided at (Appendix (“App.”) la to
196a).
JURISDICTION
This Court has jurisdiction under 28 U.S.C. §1254
(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The Fifth Amendment states in relevant part: “No
person shall... be deprived of life, liberty, or
property, without due process of law ....”
The Sixth Amendment states in relevant part that
“In all criminal prosecutions, the accused shall enjoy
the right ....trial, ...to be informed of the nature and
cause of the accusations, to be confronted with the
witnesses against him,...and to have the Assistance
of Counsel for his defense.
The Fourteenth Amendment states in relevant part
that “no state shall make or enforce any law nor

2
shall any State deprive any person of life, liberty, or
property without due process of law! nor deny any
person within its jurisdiction the equal protection of
the laws.”
This Court has repeatedly reaffirmed “that a
conviction, secured by the use of perjured testimony
known to be such by the prosecuting attorney, is a
denial of due process.” White v. Ragen, 324 U.S. 760,
764 (1945). “The same result obtains when the State,
although not soliciting false evidence, allows it to go
uncorrected when it appears.” Napue v. Illinois, 360
U.S. 264, 269 (1959). When the prosecutor fails to
fulfill his “duty to correct what he knows to be false
and elicit the truth,” he “preventts] ... a trial that
could in any real sense be termed fair.” Id. at 270.
(See also United States v.Agurs, 427 U.S. 97, 103
(1976) (“In a series of. . . cases, the Court has
consistently held that a conviction obtained by the
knowing use of perjured testimony is fundamentally
unfair.”).
This court has further ruled that:
“[A] conviction obtained by the knowing use of false
testimony must be set aside if there is any
reasonable likelihood that the false testimony could
have affected the jury’s verdict.” United States v.
Bagley, 473 U.S. (1985) at 679 n.9 (citing Napue).
In this case, a key prosecution witness offered false
testimony critical to the conviction of petitioners.
The perjurious witness testimony in this case was
not only on based on hearsay-out-oficourt
statements that went to the truth of the matter in

3
order to obtain convictions in this case; but it was
also based on suppression of an FBI 302 Report by
the government in violation of Brady v. Maryland,
373 U.S. 83 (1963), that contained impeachment and
exculpatory evidence that went to the heart of the
guilt or innocence of Petitioners! and that was later
confirmed through a secret plea deal (App M) that
also suppressed by the government in violation of
Brady; and that was placed under seal by the district
court of wealthy and affluent attorney, who was the
initial target of the Internal Revenue Investigation,
and whose plea of guilty for tax fraud was based on
the same evidence the government alleged at trial
was fraud by the Petitioners.
Under normal circumstances, “[a] new trial is
required if ‘the false testimony could ... in any
reasonable likelihood have affected the judgment of
the jury ....’” Giglio v. United States, 405 U.S. 150,
154 (1972) (quoting Napue, 360 U.S. at 271).
However, because the prejurious testimony by the
government’s witness also included a violation of
Brady based on the suppression of key evidence
critical to the guilt or innocence of petitioners,
combined with violations of the petitioners’ due
process rights under the sixth amendment of the
constitution based on hearsay evidence, the reversal
of convictions of Petitioners in this case is
warranted.

Statutory Provisions
Title 26, U.S.C. §7201 - Attempting to Evade
Assessment for Tax years 2009-2013.

4

The Government Charged the Petitioners with
violating Title 26, U.S.C. §7201.
The record in this case documents that the
government did not provide any affirmative acts that
would support a conviction for tax evasion in this
case, because the indictment included a tax evasion
charge that rewritten to include elements of offenses
from three separate statutes under Title 26 7201,
7206 (l), and 7207. This illegal and hybrid offense
charged in the indictment permeated the entire
prosecution from the beginning to the end, and
resulted in convictions unsupported by neither the
Statute nor established law.
Title 26, U.S.C. §7206 (l) - Filing of a False Tax
Return for Tax years 2009-2013.
The Government also charged the Petitioners with
the offense of Filing of a False Tax Return. This
resulted in a pyramid or stacking of charges because
filing of a false tax return was charged as lessor
included offense of tax evasion resulting in duplicate
charges. Congress, in fixing varying penalties for
offenses of attempting to evade federal income tax
and for willfully making and subscribing a tax
return not believed to be correct, did not intend to
pyramid penalties and authorize a separate penalty
for a lesser included offense, which arose out of the
same transaction and which would be established by
proof of guilt of the greater offense of attempting to
evade income tax. United States v. Lodwick, 410
F.2d 1202, 1206 (8th Cir.), cert, denied, 396 U.S. 841
(1969). See also, United States v. Dale, 991 F.2d 819,
858-59 (D.C. Cir. 1993); United States v. Kaiser, 893

5
F.2d 1300, 1307 (llth Cir. 1990); United States v.
Citron, 783 F.2d 307, 312*14 (2d Cir. 1986).
STATEMENT OF THE CASE
I. Introduction
A. This is an extraordinary case. One that not only
shocks the conscience, but demonstrates how any
ordinary citizen may find him or herself in the cross*
hairs of an unconstitutional criminal prosecution.
Petitioner Charles Bolton and his wife are African
American small business owners and who became
selective targets of criminal investigations and
prosecutions following their support for an African
American Candidate for Mayor in the city
Hattiesburg, Mississippi. Petitioner Charles Bolton
was a career 40-year Law Enforcement Officer and
public servant, and he and Petitioner Linda Bolton
were committed servants to the poor and under­
privileged community in which they lived. They had
no criminal record nor had they ever been charged
with a crime prior to this case.
The investigation and prosecution of petitioners
occurred in the Southern District of Mississippi after
the Attorney General of the United States issued a
Department of Justice Memorandum that recused
the entire office of the United States Attorney for the
Southern District of Mississippi, and its
investigators from further investigation and
prosecution of Petitioner Charles Bolton..
The Assistant General Counsel for Executive Office
for the Assistant United States Attorney General

6
issued a written memorandum on July 29, 2015, that
recused the entire Office of the Assistant United
States Attorney and all investigators (federal and
state) from the Southern District of Mississippi from
the investigation and possible prosecution of Ms.
Linda Bolton’s husband (Charles Bolton). Failure to
provide this evidence to the defense by the
government, constitutes a major discovery violation
under Brady v. Maryland, 373 U.S. 83 (1963).
The DOJ issued a Memorandum dated July 29, 2015
(App J.), memorializing their findings following an
investigation based on a complaint filed a member of
Congress on behalf of petitioner Bolton, that
included the removal of the case from the Southern
District of Mississippi and reassigning it to the
Eastern District of Louisiana.
Instead of following the directives of the DOJ, the
record documents that United States Attorney for
the Southern District of Mississippi, continued the
investigation of Petitioner Charles Bolton after his
recusal, through a Grand Jury convened under Title
18 United States Code, in conjunction with IRS
Agent Bradley Luker. These actions were without
prior authorization by the DOJ Tax Division, as
required by statute to investigate alleged tax
violation which may be authorized under Title 26,
U.S.C. The record reflects that the indictment
returned in this case in March 22, 2016, was eight
(8) months after DOJ issued the July 29, 2015,
memorandum based on an investigation by IRS
Agent Luker and based on a grand jury convened in
Mississippi and by the United States Attorney’s
office for the Southern District of Mississippi.

7

This DOJ Memorandum was suppressed by the
government and not turned over during discovery
before, during or after trial, and petitioners did not
learn of it until April 2017, after their trial and tax
convictions in this case, and after they were
sentenced to terms of imprisonment. The Petitioners
only learned of the memorandum through its release
as a result a freedom of information request filed on
their behalf by Counsel, Attorney Ivan Bates, with
the DOJ following their September 2016,
convictions. After receiving the DOJ Memorandum,
the Petitioners promptly filed Motions for New Trial
in the district court based on this new evidence, and
requested their convictions and sentencings be
vacated.
II. The Indictment
On March 22, 2016, Petitioners (“the Boltons”) were
named in a ten-count indictment in the Eastern
Division of the Southern District of Mississippi.
Counts 1-5 charged the Petitioners with Attempt to
Evade or Defeat Tax in violation of 26 U.S.C. § 7201,
in relation to the couple’s tax filings in years 20092013. Counts 6 through 10 charged the Petitioners
with Filing a False Tax Return in violation of 26
U.S.C. § 7206(l) regarding their tax filings for years
2009-2013.
Although a federal grand jury is empowered to
investigate both tax and non-tax violations of federal
criminal laws, the Tax Division must first approve
and authorize the United States Attorney's Office’s

8
use of a grand jury to investigate criminal tax
violations (28 C.F.R. § 0.70) (App L).
This process was not followed in this case. Instead,
IRS Agent Luker led a tax grand jury investigation
of Petitioners under Title 18, U.S.C. in the Southern
District of Mississippi without authorization of the
Tax Division in conjunction with the Office of the
United States Attorney’s Office for the Southern
District of Mississippi after that office had been
recused from further investigation and prosecution
of Petitioner Charles Bolton (App J). The Assistant
United Attorney for the Eastern District to
Louisiana stated on the record that IRS Agent Luker
had tried but failed to obtain Department of Justice
Tax Division Approval.
He further stated:
And I was shocked that I had not been
contacted by anyone in connection with
that matter.
THE COURT: The food theft case?
MR. HARPER: No, about the tax case.
I hadn't -Judge, I had done nothing on the food
theft case. I bored in on the tax case,
and the information that Mr. Luker
gave me about the tax case, and pressed
the tax division, which can be difficult
to deal with in Washington, about
approving the tax case, and I obtained
that approval, mainly because Bradley
Luker had already been -- advanced the
ball way down the field on that matter,

9
and, and still heard from no one on about the tax case. And there were
subpoenas and things like that that had
been issued, and, well, you know, I can't
talk about that, the recipient of a
federal subpoena can talk about it all
day. And I was just surprised. So we
went in, indicted the case.
The subpoenas referenced by AUSA Harper as
having been executed by IRS Agent Luker were
never produced to Petitioners in discovery, and it is
unknown by what entity or who authorized the
subpoenas or for what purpose.
The Department of Justice Tax Division is the only
governmental entity authorized by statute to
approve Criminal proceedings arising under the
internal revenue laws, (28 C.F.R. § 0.70). In this
case, evidence in the record documents that the
investigation and prosecution of Petitioners were not
consistent with the legal procedural requirements as
outlined in the statute governing tax prosecutions,
and it did not follow the directive of the DOJ
statutes. The unraveling of the questionable process
of the investigation began following a Department of
Justice inquiry by the Attorney General of the
United States in early 2015.
Before a United States Attorney’s Office may file any
information or seek the return of an indictment on
matters arising under the internal revenue laws in
an expanded investigation, the Tax Division must
first authorize the specific tax charges (App. L). The
record is devoid of any documentation that proper

10
procedures were followed to gain approval for a tax
prosecution of petitioners in this case.
The Government’s Indictments Against the Boltons
Have Multiple Statutory Errors Creating Glaring
Incongruities^
The government cannot reconcile its arbitrary
merging of multiple elements from different
statutory tax offenses into its tax evasion counts
under Title 26 U.S.C. §7201, in the Boltons’
indictments. The government combined elements of
multiple statutory offenses, §7206 (l) and §7206 (2)
into its tax evasion counts under 26 U.S.C. §7201
resulting in an unconstitutional and non-statutory
offense.
The government inserted “preparation” and other
language from an element of 7206 (2) which states:
Defendant aided or assisted in
procured, counseled, or advised the
preparation or presentation of a
document in connection with a matter
arising under the internal revenue
laws.
This is not a statutory element of tax
evasion. (See App
The government also inserted language stating
“signing” a false and fraudulent tax return and other
language from an element of Title 26 U.S.C. §7206
(l) as follows:

11
The making and signing of a return
statement or other document containing
a written declaration that it was signed
under the penalties of perjury.
The Boltons were not charged in the indictment
under Title 26 U.S.C. §7206 (2), and there was no co*
conspirator or other defendant. Inclusion of §7206 (2)
language regarding preparation of returns and
§7206 (l) language of signing a false return in the
Boltons’ indictments under tax evasion §7201 creates
a non-existent hybrid tax evasion statute (with non­
existing statutory offense) with incongruent tax
crime elements and offenses and constitutes plain
error. Mixing elements of competing incongruent
tax statutes under tax evasion renders the
indictment insufficient. A Section 7206 (2)
prosecution differs from a Section 7206 (l)
prosecution because one of the required elements of
a §7206 (l) violation is subscribing (signing) any
return statement or other document under penalties
of perjury, but this element is not material to a
§7206 (2) prosecution. The government amended the
required elements for tax evasion in the Boltons’
indictments to include two new elements, signing of
a false return under the penalties of perjury and
preparation or assist in preparation of a false return.
This resulted in the Boltons being convicted of non­
existing hybrid tax offenses outside of the tax
evasion statute, duplicity of charges and associated
convictions and sentences for the Boltons.
The indictment in this case fails, as the elements
were not charged with particularity and did not

12
apprise the Boltons’ of what they were being charged
with specificity or found guilty of.
The sufficiency of an indictment is measured by
whether (l) each count contains all essential
elements of the offense charged, (2) the elements are
charged with particularity, and (3) the charge is
specific enough to preclude a subsequent prosecution
on the same offense. United States v. Threadgill, 172
F.3d 357, 366 (5th Cir.1999).
The canon against surplusage is not a mechanical
rule, but this Court has repeatedly held the canon
has its greatest force where a given interpretation
would undercut another provision in the “same
statutory scheme.” Marx v. General Revenue Corp.,
568 U.S. 371, 386 (2013); United States v. Jicarilla
Apache Nation, 564 U.S. 162, 185 (2011) (rejecting
interpretation “which renders superfluous another
portion of that same law”); Mackey v. Lanier
Collection Agency & Service, Inc., 486 U.S. 825, 837
& n.ll (1988) (same) (collecting authority). “The
imperative of harmony among provisions is more
categorical than most other canons of construction
because it is invariably true that most intelligent
drafters do not contradict themselves (in the absence
of duress). Hence there can be no justification for
needlessly rendering provisions in conflict if they can
be interpreted harmoniously.” Antonin Scalia &
Bryan A. Garner, Reading Law 180 (2012). Marinello
v. United States ofAmerica, 839 F.3d 209 (2018).
Materiality

13
The government omitted the second element of
materiality under Section §7206 (l) from the
Boltons’ indictment, during trial, and failed to
provide it to the jury for a determination. The Fifth
Circuit opinion omitted this element: The inclusion
in the document of information that was false as to a
material matter.
Section 7206(l) proscribes filing a federal tax return
which the taxpayer "does not believe to be true and
correct as to every material matter." Because
materiality is an element of a § 7206(l) offense, see
United States v. Samara, 643 F.2d 701, 703 (10th
Cir. 198l)(§ 7206(l) requires proof of a false
statement, willfully made, of a material matter),
Petitioners had the right to have the jury decide
materiality. As this court instructed in United States
v. Gaudin, 515 U.S. at 511, 115 S. Ct. 2313 (1995):
The Constitution gives a criminal
defendant the right to demand that a
jury find him guilty of all the elements
of the crime with which he is charged;
one of the elements in the present case
is materiality; [defendant] therefore
had a right to have the jury decide
materiality.
After Gaudin, materiality is an issue to be
determined by the jury. Gaudin, held that it was
error for a trial court to refuse to submit the
question of materiality to the jury in a prosecution
under the first prong of 18 U.S.C. § 1001,
overturning lower court cases holding that
materiality was a legal question for the court.

14
The court has held that if materiality is an element
of the offense, that element must be submitted to the
jury, and the jury must find materiality beyond a
reasonable doubt to convict. Gaudin applies to 26
U.S.C. § 7206 (false statements on a tax return).
Specifically, the Court stated that "[t]he most
common formulation of that understanding is that a
concealment or misrepresentation is material if it
has a natural tendency to influence, or was capable
of influencing, the decision of the decision-making
body to which it was addressed." 485 U.S. at 770
(citations and internal quotation marks omitted).
To establish materiality as an element, it is
sufficient that the statement have the capacity or a
natural tendency to influence the determination
required to be made. See Id.', United States v.
Lueben, 838 F.2d 751, 754 (5th Cir. 1988); United
States v. Allen, 892 F.2d 66, 67 (10th Cir. 1989). One
often cited test for materiality appears in United
States v. Weinstock, 231 F.2d 699, 701 (D.C. Cir.
1956):
"Material" when used in respect to
evidence is often confused with
"relevant," but the two terms have
wholly different meanings. To be
"relevant" means to relate to the issue.
To be "material" means to have
probative weight, i.e., reasonably likely
to influence the tribunal in making a
determination required to be made. A
statement may be relevant but not
material.

15
Because the district court did not require the jury to
make a finding on an essential element of the case,
vacatur of the petitioners' filing of a false tax return
and their evasion tax convictions, respective
sentences filing of a false return is a lessor charge of
the offense of the tax evasion convictions. The Fifth
Circuit was also required to vacate restitution orders
against Petitioners Charles and Linda Bolton, which
were premised on their filing of false returns and on
tax their evasion convictions.
The Boltons’ indictments are legally insufficient and
fails under Threadgill and violates the Boltons’ Sixth
Amendment rights to be informed of the nature and
cause of the accusations against them.
Unless it was proven that the Boltons’ violated the
required statutory elements of offenses under 26
U.S.C. §7201 and §7206 (l) their convictions must be
overturned. United States v. McGhee, 488 F.2d 781,
784-85 (5th Cir.1974).
III. The Trial Proceedings
There are significant irregularities concerning IRS
Agent Luker’s role in the investigation and
prosecution of petitioners. The record documents he
was the IRS Agent involved in the investigation of
the Petitioners including issuance of subpoenas.
Further, he did not disclose the investigation to the
Eastern District of Louisiana of petitioners after the
United Attorney for the Southern District of
Mississippi was recused by DOJ. IRS Agent Luker
authored a Special Agent Report that recommended
the indictment of the petitioners without first

16
conducting an interview with them regarding the
IRS investigation. Petitioners only learned of any
issues with their tax returns after they were indicted
on tax charges.
IRS Agent Luker also served a summary witness for
the government at trial, and he prepared summary
charts detailing the alleged tax deficiencies
petitioners were subject to for tax year 2009 -2013.
The information contained in the charts included
computations IRS Luker prepared, based on out-ofcourt statements of Attorney John Lee made during
an FBI investigation that the checks written to their
businesses were for “food and liquor”, and that were
later presented to the jury and provided to them for
use in their deliberations. IRS Agent Luker testified
as to the truth of the matter regarding the Lee
checks, substituting his own knowledge for that of
Lee’s. IRS Agent Luker’s hearsay testimony, over
the objections of petitioners’ trial counsel,
constituted a violation of the petitioners’ rights
under the confrontation clause which states that:
The Confrontation Clause provides, in pertinent
part:
“[i]n all criminal prosecutions, the accused shall
enjoy the right. . . to be confronted with the
witnesses against him.” U.S. Const, amend. VI.
The confrontation clause guarantees criminal
defendants the opportunity to face the prosecution's
witnesses (such as John Lee) in the case against
them, and dispute the witnesses' testimony. This
guarantee applies to both statements made in court

17
and statements made outside of court that are
offered as evidence during trial. Crawford v.
Washington, 541 U.S. 36, 53-54 (2004). The
Confrontation Clause bars the admission of
“testimonial statements of a witness who did not
appear at trial unless he was unavailable to testify,
and the defendant had a prior opportunity for crossexamination.” Id. at 68. . Further, there is no
evidence John Lee was unavailable based on criteria
prescribed as exceptions under Rule 804(a). ” Fed. R.
Evid.
IV. Willfulness/Jury Instructions Provided by the
District Court were erroneous.
The petitioners briefed the Fifth Circuit that the
jury instructions provided to the jury were erroneous
as to willfulness. The District Court abused its
discretion when it gave an incorrect instruction for
“willfull” to the jury and refused to answer the jurors
questions about “willfull” and "unwillfull.”
The District Court committed reversiable error in
reading the Fifth Circuit’s Pattern Jury Instructions
2.101 for the Substantive Charge of Tax Evasion, 26
U.S.C §7201 by instructing the jury as follows^
The word willfully as that term has been used from
time to time in these instructions means that the act
was committed voluntarily and purposely with the
specific intent to do something the law forbids, that
is to say, either to obey or disregard the law
The instruction given by the judge is an incorrect
statement of the law, and incorrectly instructed
jurors as to the principles of law applicable to the

18
factual issues confronting them and the resulting
“guilty verdicts” cannot be sustained based on the
“beyond a reasonable doubt” standard.
The court ruled in Cheek v. United States 498 U.S.
202, 111 S. Ct. 604 reasoned that the government
cannot carry its burden to prove willfulness in a
criminal tax prosecution if the jury believes that the
defendant, in good faith, did not understand the law.
That is true regardless of "however unreasonable a
court might deem such a belief." Id.; see also United
States v. Simkanin, 420 F.3d 397, 410 (5th Cir.
2005).
The district court’s jury instructions regarding
willful in this case created confusion for the jury and
resulted in the jury sending a question to the court
for further clarification of its definition. It is clear
from their question that the jurors were confused by
• the instructions regarding willful. The district
court's jury charge for willful did not comport with
Cheek because of the error in the statement of the
law and because it did not advise the jury that a
defendant's good faith misunderstanding of tax law
may be “objectively unreasonable”. This error was
not corrected by the court orally and the written
instruction did not cure the error as the district
court changed the standard in Cheeks to state
erroneous instead of objectively unreasonable in its
written Instruction #17 that it provided to the jury.
The jury posed the following jury question to the
court requesting clarification of the court’s
instruction regarding willful:

19

THE COURT: "Can you give a
clarification on willfully and unwillfully
attempt to evade?" The court refused to
re-read Instruction #17. Defense
counsel objected. The jurors did not
understand willful and good faith as
they mentioned “unwillfully.”
The court did not answer the jurors question and
stated he would ask jurors to re-read Instructions
13, 14, 15. Clarification of the definition of willful
was warranted since the district court’s reading of
the willful jury charge to the jury before
deliberations did not comport with Cheek and
statement of law, as it did not advise the jury that a
defendant's good faith misunderstanding of tax law
may be “objectively unreasonable.”
District Court Errors in Reading Basic Elements of
Tax Evasion
The District Court abused its discretion by pre­
drafting and then reading to the jury its own newly
created quasi-elements for tax evasion it developed
just for the Boltons’ case. These instructions
deviated from the Fifth Circuit Patterned
Instructions. The court presented it to the jury as
required elements for tax evasion which did not
mirror the Fifth Circuit pattern jury instructions.
The court arbitrarily selected and combined
paragraphs which appeared to be the most punitive
language from Fifth Circuit Pattern Jury
instructions with language of Sixth Circuit Pattern

20
Jury Instructions and read them to the jury as Fifth
Circuit required elements for tax evasion just for the
Boltons’ case. Having jumbled together arbitrary
sections of required elements for tax evasion from
multiple circuits, the judge read them to the jury
shortly before jury deliberations as required
elements for tax evasion for a Fifth Circuit case, the
District Court created a different standard of
required elements for tax evasion that the Boltons
were subjected to which were distinctly different
from what other tax case defendants in the Fifth
Circuit were subject to. This error biased the Boltons
and their due process rights to a fair trial.
The District Court Judge combined Sixth Circuit
Pattern Jury instructions under 5.01 Attempt-Basic
Elements with the Fifth Circuit Pattern Jury
Instructions under 2.101 Basic Elements and read
the combined instructions to the jury as required
elements for a conviction for tax evasion^
For you to find the defendants guilty of
attempting to commit tax violation, you
must be convinced that the government
has proved each of the following beyond
a reasonable doubt. First, that the
defendants intended to commit tax
evasion for the years 2009 through
2013; and, second, that the defendants
did an act that constitutes a substantial
step towards the commission of a crime
and that strongly corroborates the
defendants’ criminal intent and
amounts to more than mere

21
participation.
The Judge purposefully did not read the last
paragraph for Sixth Circuit Pattern Jury instruction
which states:
(2) If you are convinced that the
government has proved both of these
elements, say so by returning a guilty
verdict on this charge. If you have a
reasonable doubt about either one of
these elements, then you must find the
defendant not guilty.
The District Court made no attempts to take
corrective action before the jury began and
completed deliberations. The trial judge’s failure to
immediately explain and correct errors contributed
to a finding of guilt by the jury. These errors
violated the Boltons due process rights to a fair trial
guaranteed under the Fifth and Fourteenth
Amendments and failed the public judiciary’s
interest in ensuring that criminal trials are
conducted within the ethical standards of the
profession, and that legal proceedings appear fair to
all who observe them. Wheat v. United States, 486
U.S. 153, 160 (1988).
The errors in the Boltons’ indictment combined with
errors in the Jury Verdict Form (failure to state the
elements of the offense per count, failure to state
affirmative acts charged per count, and failure to
state the amount of the tax deficiency per count) and
errors in the Fifth Circuit Pattern jury instructions
on key elements of §7201 were amplified by the

22
Government’s argument to the jury which included
non-charged offenses, errors in the indictment and
jury instructions. United States v. Chagra, 807 F.2d
398, 402 (5th Cir. 1986).
A jury instruction must: (l) correctly state the law,
(2) clearly instruct the jurors, and (3) be factually
supportable. United States v. Phea, 755 F.3d 255,
266 (5th Cir. 2014). “[Slpecific jury instructions are
to be judged not in isolation, ‘but must be considered
in the context of the instructions as a whole and the
trial record.” Id.
The jury verdict form in this case did not conform to
law, and it did not state the elements of the offenses,
provide the affirmative acts and the tax deficiency
amounts for each count, therefore, it is unclear what
the jury convicted the Boltons of. Jury verdict forms
are considered part of the jury instruction and has a
combined effect on the jury. Jones v. United States,
527 U.S. 373, 393 (1999). See also United States v.
Cardinas Garcia, 596 F.3d 788, 799 (10th Cir. 2010).
(When reviewing a jury verdict form, we must
determine whether it, along with the instructions
read to the jury, as a whole adequately stated the
applicable law).
The trial judge never told the jury to indicate which
of the criminal acts under §7201 and §7206(1)
supported its verdict and allowed the jury to just
mark an X next to Guilty on the Jury Verdict Form.
Further, the Boltons’ final verdicts are questionable
as the trial judge committed another judicial error
after the jury told the court it had reached a verdict
and was called back into the courtroom. The trial

23
judge directed the jury to “complete” the verdict form
after informing the jury that something was missing.
United States v. Jose Latorre-Cacho, 874 F.3d 299
(1st Cir. 2017). The court in Latorre-Cacho
concluded that Latorre’s challenge to the jury
instructions had merit and vacated his conviction
when the trial judge committed this same error.
Although fully briefed by Petitioners, The Fifth
Circuit failed to render an opinion on erroneous jury
instructions and jury verdict form.
V. The Government’s Evidence Did Not Prove
Beyond a Reasonable Doubt An Affirmative Act of
Commission Constituting An Attempt to Evade
Taxes Or Willfully File a False Return
The Boltons did not willfully commit tax evasion of
assessment and did not willfully file false tax
returns. Each element must be proved beyond a
reasonable doubt. United States v. Marashi, 913
F.2d 724, 735-36 (9th Cir. 1990); United States v.
WiUiams, 875 F.2d 846, 849 (llth Cir. 1989).
The Boltons never received a notice of tax deficiency.
The government did not dispute and the Fifth
Circuit did not address, the crucial fact that the
Boltons never received a notice of tax deficiency as
required by law before a criminal prosecution can
ensue. See Title 26 U.S.C., §6212; Perez v. United
States, 312 F.3d 191, 196 (5th Cir. 2002); Scar v.
Commissioner, 814 F.2d 1363, 1366 (9th Cir. 1987).
This is a fundamental due process concern and the
Boltons have been prejudiced as a result. Properly
noticed, the Boltons could have made all attempts to
remedy the problem before criminal liability ensued.

24

The Boltons’ 2009 return was amended and the 2010
return was amended, settled and closed and the
government re-opened the closed books for this year
without notice to the Boltons as required under tax
statutes and charged him criminally for evading
assessment of tax for these years.
The Boltons’ argued United States v. Adams, 314
Fed. Appx. 633 (5th Cir. 2009) applies as the charged
offense in their indictments under section, §7206(1)
refers to a tax form 1040, not amended form 1040X
and states “(a) Charles and Linda Bolton’s joint
United States Individual income Tax Return, Form
1040 reported on line 22, in each of the years noted
below, a total amount of income.”
In Adams, the government is required to prove what
is stated in the Indictment. For the Boltons’
amended returns, they were not required to submit
Form 1040 or Schedule C with amended return
1040X and there is no line 22 on 1040X forms,
therefore; the government’s charging language in the
Boltons’ indictments as affirmative acts for not
reporting a correct amount on line 22 of form 1040
does not apply or comport with the Boltons amended
returns Forms 1040X. Further, there is no signing
under the penalty of perjury jurat on amended
1040X forms. The Boltons’ indictments are legally
insufficient and the Boltons should not have been
charged criminally for alleged offenses as the
government did not prove affirmative acts stated in
the indictments. The government assured the Fifth
Circuit in Adams that it would only prosecute an
amended return if the amended return itself was

25
materially false. The amended returns were not
materially false. The amended returns proved the
Boltons made good faith attempts to amend their
taxes and negate willful intent. Cheeks v United
States. In addition, the jurat on the 1040X form did
not comport with the perjury language in Form
1040, or the language in the Government’s
indictment and therefore, the Government did not
meet its burden to prove its charged offenses in its
Indictments.
There is no evidence that the Boltons signed a false
return. One of the principal elements for conviction
under 26 U.S.C. §7206 (l) is that the defendant
“made and signed a false return.” United States v.
Bishop, 264 F.3d 535, 552 (5th Cir. 2001). There is no
evidence, and the government conceded the Boltons
did not sign returns. Without satisfaction of this
element, the Boltons’ convictions under, §7206 (l)
cannot stand. See Garner v. Louisiana, 368 U.S. 157,
164 (1961) (reversal required where there was no
evidence of essential element). The Fifth Circuit
panel decision did not address this argument.
John Lee Checks
The Government’s argument in its brief that it
would be able to meet its burden and there would
still be enough evidence to convict the Boltons
without the John Lee checks does not adhere to due
process law as it is for a jury to decide and it does
not comport with law established in Burks v. United
States 633 F.3d 347 (5th Cir. 2011). With the Lee
checks making up approximately 80% of the
government’s alleged tax deficiency and Lee pleading

26
guilty to filing of a false tax return under §7206(1)
for false and fraudulent deductions associated with
his tax returns for the same timeframe of the
Boltons’ indictments, it unravels the government’s
case and arguments made during trial. It disproves
the government’s main argument against the
Boltons that there was no evidence which
demonstrated the deductions of expenditures
included in John Lee’s ledgers and tax returns (same
deductions the government stated were legitimate as
to the Boltons) were fraudulent or not deductible.
Mr. Lee’s plea was signed on June 12, 2017, after
Petitioners were sentenced and began their terms of
imprisonment. Prosecutor Harper signed the plea
deal and was aware of this when he wrote his June
12, 2017 Opposition to Defendants’ Motions for New
Trial. The District Court was also aware since Mr.
Lee’s plea deal was placed under seal at the District
Court.
The Government did not meet its burden of proof
beyond a reasonable doubt that the John Lee checks
were income to the Boltons as charged in the
Indictment. United States v. Stanfa, 685 F.2d 85, 8687 (3d Cir. 1982). See also Jones v. Thomas, 491 U.S.
376, 381 (1989).
Since there is no differentiated single affirmative act
of only the John Lee checks as a single count in the
Boltons’ indictments and jury verdict forms, all of
the counts should be vacated as all counts in the
indictment and jury verdict form include the John
Lee checks rolled into alleged deficiency totals with
other affirmative acts in Counts 1 through Count 10.

27
This renders both the indictment and jury verdict
form legally insufficient. The Government must
prove the affirmative acts as stated in its indictment.
(See United States v. Adams).
The Government’s secondary argument for
remaining alleged tax deficiency amounts was that
certain deposits marked as loans were income to the
Boltons and that the deposits were marked as loans
to avoid being recorded as revenue. The District
Court’s opinion denying the Boltons’ Motions for
Acquittal and New Trial that even without the Lee
checks, the Boltons would have been convicted is in
error. This is for a jury to decide. No case was
presented to a grand jury or trial jury without the
John Lee checks.
The District Court’s opinion would require this
Court to guess which affirmative act or what the
jury found the Boltons guilty of based on the
government’s erroneous and legally insufficient
indictments and jury verdict forms which rolled the
Lee check totals into Counts 1 through 10 with
Manheim, National Guard and Merchant check
totals. Attempting to now separate the Lee checks
out of counts formerly presented to the jury as
bundled counts including the Lee checks post-trial
would be tampering, United States v. Fairley, 880
F.3d 198 (5th Cir. 2018).
The Government’s accounting methodology and
formula for calculating its tax deficiency amounts
also followed this pattern of inclusion of John Lee
cashed and deposited checks, certain checks alleged
to have been marked as loan, Manheim, National

28

Guard and other checks combined in deficiency
totals. This was presented to the jury by the
government in the form of summary charts and was
asserted as truth during their arguments before the
jury.
IRS Agent Luker testified and agreed that every
monetary transaction that the government
challenged with reference to National Guard and
Manheim, First Data Merchant Services and other
vendors of the Boltons were backed by a 1099
delivered by Ms. Bolton to their accountants,
Nicholson & Company and thus, he conceded there
was no concealment of these records. These are
official documents that were also forwarded to the
IRS by these companies and reported on the Boltons’
tax return Schedule C by their tax preparer for the
years 2009-2013. He further testified that the IRS
would look at the 1099s to examine for gross income.
He also stated that the Boltons’1099s were not
deceptive. In Burks, this Court held that taxpayers,
although they misstated their bases, “disclosed the
nature of the items on their tax returns sufficient to
notify the Commissioner of the item being reported.”
The Fifth Circuit followed other circuits and this
Court and found that 26 I.R.C. section
6501(e)(1)(A)(ii) creates a safe harbor for “omissions
of amounts which, though not included in the gross
income as stated in the tax return, are adequately
disclosed such that the IRS has sufficient notice”.
This is the case here. The government failed to prove
the deposits marked as loans and other vendor
payments were not disclosed and provided to the IRS
as they were included in the 2009-2013 1099s and on

29
Schedule Cs in the Boltons’ tax returns, which Agent
Luker testified was the case and he stated that items
marked as loans were used in the normal course of
business for the Boltons’ businesses in his S.A.R.
Report. The government knew money marked as
loans were used in the normal course of business for
the Boltons as stated in the S.A.R. Report and still
charged the Boltons with tax evasion.
The Boltons should not have been criminally
prosecuted as this met the 26 I.R.C. section
6501(e)(1)(A)(ii) requirement, Fifth Circuit law and
this Court’s law in Burks.
The Boltons’ rights to due process and fair trial
guaranteed under the Fifth and Fourteenth
Amendments were violated and their convictions
should be overturned as they could not have
overcome the multiple errors by the government and
the District Court in the Boltons’ indictments, jury
instructions, court proceedings, insufficiency of
evidence and prosecutorial misconduct.
Although fully briefed by petitioners, the Fifth
Circuit failed to render an opinion on sufficiency of
evidence.
At the conclusion of trial, Petitioner Charles Bolton
was found guilty on Counts 2-10, and Petitioner
Linda Bolton was found guilty on Counts 6 through
10. The Boltons were found not guilty on Count 1.
The jury could not reach a verdict on Counts 2-5 as
to Petitioner Linda Bolton, and the Court declared a
mistrial at to those counts.

30
Petitioner Linda Bolton was acquitted of tax evasion
for 2009, and received no convictions for the
remaining four (4) tax evasion Counts 2-5 due to a
hung jury. Petitioner Charles Bolton was acquitted
for tax evasion for Count 1 but found guilty of tax
evasion for count 2-5.convicted of counts 1-5 Both
Petitioners were tried together at the same trial on
the same evidence.
VI. Sentencing Errors
Prior to sentencing, the district removed the written
Objections to the PSRs from the docket filed by the
petitioners. At sentencing the district court not only
forced Petitioner Charles Bolton to proceed with
terminated counsel against his wishes, he stated on
the record that the petitioners failed to file any
objections to the PRS and therefore, he was going to
accept them as filed. This assertion was not true as
to the facts. Petitioners did file objections to the
report, and cited the finding by the IRS Agent that
he found no relevant conduct in his investigation,
and that items marked as loans, were used in the
normal course of business and noted there were no
record of any major purchases. (App K). After
petitioners reported to prison, the court entered an
order to reinstate the Petitioners’ Objections back to
the docket (App L).
Although the district court stated the PRS were
accepted in their entirety, the Probation officer
provided a statement declaring that there was
nothing in that office’s investigation that would
warrant an upward variance in sentences in this
case. (App ). The court deviated from both the
USSG and the PRS and ordered an upward variance

31
for petitioner Charles Bolton. The district court also
increased the amount increase the deficiency
calculations from that included in the jury’s verdict
at trial, to increase the punishment for Petitioner
Charles Bolton, violating petitioners’ rights to due
process, under the Fifth and Fourteenth
Amendments of the Constitution.
The district court imposed a sentence of an upward
variance sentence greater than the maximum
guidelines range for the offense of conviction based
on irrelevant factors in violation of rights to due
process under the Fourteenth Amendment of the
Constitution of the United States.
The Petitioners sentences are also illegal because a
recently unsealed john Lee plea deal documents that
John Lee has pled guilty to tax fraud for the same
checks the government alleged was income to the
Boltons, and that led to their illegal convictions, and
sentence of imprisonment. When the petitioners
learned of this on April 2, 2018, they filed a motion
with the Fifth Circuit to with Fifth Circuit
requesting that the record be supplemented to
include it as part of the Record on Appeal in this
case, given its relevancy to the issues being
considered by this court regarding the direct appeal.
The Appellant’s Brief did include arguments
regarding suppression of the John Lee Plea Deal in
violation of Brady and refutes the Fifth Circuit’s
ruling that the Petitioners did not include the John
Lee Plea deal in their appeal brief as the Court
asserts in its opinion.
The John Lee Plea Deal was material because it
directly supports Petitioners’ innocence since the

32
plea confirms that the checks alleged to be income to
the Boltons are the same checks that John has
admitted was fraud as to his tax returns. Evidence
is material under Brady “if there is a reasonable
probability that, had the evidence been disclosed to
the defense, the result of the proceeding would have
been different.” Kyles v. Whitley, 514 U.S. 419, 433,
115 S.Ct. 1555, 131 L.Ed.2d 490 (1995).
The Fifth Circuit’s Decision is Wrong.
The Fifth Circuit Opinion is inconsistent with the
record in this case, uphold the district court’s orders
that violate established statutes and well
established legal principles precedent set by this
court.
VII. Opinion of the Fifth Circuit Regarding the
District Court’s Denial of the FBI 302 Report as
Brady Material was erroneous.
A. October 18, 2018 Opinion.
The Fifth Circuit ruled erroneously in its October 18,
2018, Opinion that the district court did not err in
denying the FBI 302, and that the government did
not withhold the report from the Boltons; and
erroneously stating that it was turned over as
required Jencks material. The Fifth Circuit further
ruled that, “Accordingly, the FBI 302 interview
report does not qualify as Brady material citing
United States v. Swenson, 894 F.3d at 683 (5th Cir.
2018)”. The Court applied the wrong legal standard
in citing Swenson to support their ruling. Swenson
does not apply to Petitioners because they never

33
received the FBI 302 Report from the Government
before, during or after trial, whereas in Swenson.
Petitioners did not learn of the existence of the FBI
302 Report until after trial concluded when they
received the Pre-Sentence Reports in November
2016, and that referenced statements attributable to
John Lee Interview with the FBI the cashed checks
were not for food and liquor which differed from the
sworn testimony of IRS Agent Luker presented to
the jury at trial.
Petitioners further argued in their motion in the
district court requesting new trial and in their
Appeal Brief that the suppression of the FBI Report
by the government was a violation Brady. The FBI
302 Report was evidence withheld from the defense
by the Government during discovery in the trial
court, and it was not turned over to the defense as
Jencks Material as alleged by the Fifth Circuit in its
October 18, 2018 Opinion.
Petitioners filed timely motions requesting the
district court order the Government to produce the
FBI 302 report, and they, through counsel, filed a
motion for new trial on the basis of this new
evidence. In denying the Petitioners’ motion the
district court applied the wrong legal standard when
addressing the Boltons’ Brady claim, and the
Government conceded the point on appeal. The
government petitioned the Fifth Circuit in their
opposition brief and requested a limited remand,
noting that “the district court appears to have used
an incorrect standard for determining materiality”
regarding the FBI 302.

34
There was undeniably Giglio impeachment evidence
that was material to Petitioners’ defense — that the
cashed checks were not income to them. The district
court failed to conduct any test of the materiality of
the suppressed FBI 302 Report of Interview
evidence. Instead, the court concluded that the
evidence was not material or likely to produce
acquittal because of other facts cited in the record.
This is not the standard for evaluating whether a
violation of Brady occurred. The materiality inquiry
is not just a matter of determining whether the
remaining evidence is sufficient to support the jury's
conclusions. Rather, the question is whether “’the
favorable evidence could reasonably be taken to put
the whole case in such a different light as to
undermine confidence in the verdict.’” Strickler v.
Greene, 527 U.S. 263, 290 (1999) (citation omitted).
The district court thus erred when it ruled (in its
denial of the Boltons’ Brady claims regarding the
John Lee statements that even without the cashed
John Lee checks, there is sufficient evidence to
support the guilty verdict. But Brady is not a
sufficiency of the evidence test, and the court erred
in applying it so.
The Appeal panel did not conduct any analysis of
the district court’s erroneous “materiality”
assessment or reach a conclusion that the FBI
Report was suppressed. It is well established that a
conviction obtained through the use of false
evidence, known to be such by representatives of the
State, fall under the Fourteenth Amendment. The
same result applies when the State, although not
soliciting false evidence, allows it to go uncorrected

35
when it appears.” Nupe v. Illinois, 360 U.S. 264, 269
(1959).
After publication of the October 18, 2018, Opinion in
this case, the Government promptly filed an email
notice and an October 22, 2018 Motion
(App. C) with the Court requesting correction of
information contained in the Opinion issued on
October 18, 2018, that incorrectly asserted there was
no Brady violation because Petitioners Bolton
were provided a copy of an FBI 302 Report (a report
that Petitioners asserted was suppressed by the
Government during discovery). The Opinion was
therefore incorrect and needed to be corrected. The
Fifth Circuit then took an inappropriate action by
attempting to only to correct the opinion
administratively when there was a substantial issue
of exceptional importance that needed to be analyzed
and the correct legal standards and case law
applied. For this reason, the defendants objected to
Government’s request for an administrative
correction to the Opinion.
B. October 23, 2018 Modified Opinion.
The Fifth Circuit overruled the defense’s objection
and instead withdrew the October 18, 2018 Opinion
and reissued a Modified Opinion and order on
October 23, 2018, granting the Government’s Motion
for an administrative correction (App. D) by
incorrectly adjusting language pertaining the Brady
violation appealed by Petitioners based on the
Government’s failure to produce the FBI 302 Report
that documented statements made to the FBI by

36
John Lee in an interview that documents perjury by
IRS Agent Luker.
The Modified opinion of October 23, 2018, did not
correct the legal error suppression of the FBI 302
Report which was not provided by the Government
to Petitioners Charles and Linda Bolton, or their
Defense Counsel, and should have resulted in
reversal of their convictions because it impeached
the testimony of a key Government Witness.
Following the Fifth Circuit’s failed attempt to correct
an issue involving a substantial question of law
pertaining to violations of the Brady rule, in the
Court’s Modified Opinion in this case, the Court
erred again in its attempt to correct the opinion
administratively by incorrectly stating the FBI 302
Report was turned over to the defense when it was
not.
On October 24, 2018, The Government filed a formal
motion (App. E) notifying the Court that the
information contained in the Modified Opinion
issued on October 23, 2018, that incorrectly asserted
there was no Brady violation because Petitioners
Bolton were provided a copy of an FBI 302 (and that
Petitioners asserted were suppressed by the
Government) was incorrect and needed to be
corrected. The Government again requested
correction of the Fifth Circuit’s Modified Opinion
issued on October 23, 2018, to include language the
FBI 302, Report was not turned over to the Boltons.
The Fifth Circuit errered when it issued an order on
October 26, 2018, granting the Government’s Motion

37
(App. F) to Correct its Modified on October 23,
2018), as non-dispositive and without any further
analysis of whether a Brady violation, with respect
to the FBI 302 Report.
October 26, 2018 Modified Opinion Issued by the
Fifth Circuit Pertaining to Petitioners’ Brady
Violation
The Fifth Circuit withdrew the October 23, 2018
Modified Opinion and issued a third Opinion on
October 26, 2018, (App. G), attempting but failing
again to provide the legal analysis of the Brady
violation issue according to this court’s precedence in
Giglio v. United States 405 U.S. 150, 154 (1972)
(quoting Nupe, 360 U.S. at 271) as briefed by
Petitioners’ in their Original Appeal Brief filed with
the Fifth Circuit’s or this court’s legal precedents in
Napue v. Illinois governing this issue.
Although the Government filed several motions with
the Appeal Court noticing of the error in the opinion
in which the Court falsely ruled that there was no
Brady violation because Appellant Bolton was
provided a copy of the FBI 302 containing the
statements impeaching IRS Agent Luker, the court
failed as Jencks Act material, it still included
language that stated “Accordingly, the FBI 302
interview report does not qualify as Gratify material.
Swenson, 894 F.3d at 683.”
In addition, the Fifth Circuit failed to provide any
relief on this issue although the government
conceded that the district court applied the wrong

38
standard to the “materiality” prong when it denied
the Petitioners’ Brady violation.
REASONS FOR GRANTING THE PETITION
The Fifth Circuit panel improperly applied the
governing statutes regarding violations of Brady,
suppression of evidence that affected the petitioners’
constutional rights under the Fifth, Sixth, and
Fourteenth Amendments.
Granting of the petition for review is needed to:
(l) Correct the district court’s rulings and upheld by
the Fifth Circuit regarding perjurious testimony of
the key government witness directly led to
convictions in this case and cannot be sustained.
(2) To Review and correct the panel opinion and
failure to “give full consideration to the substantial
evidence” presented in this case on appeal, and
failing to provide necessary rulings at all when
warranted.
(3) To correct the numerous publication of opinions
in this case that do not conform the laws and
governing legal principles so as to not establish a
new legal precedent that will be unenforceable in the
future.

39
CONCLUSION
The Fifth Circuit has entered a decision in this case
that is in conflict with the decision of other courts of
appeals on the same important matter, has decided
an important federal question in a way the conflicts
with the decisions of this court, and has so far
departed from accepted and usual course of judicial
proceedings, as to call for an exercise of the Court’s
supervisory power to correct.
For the foregoing reasons, this Court should grant
the petition.
Charles Bolton
C/O Linda Bolton
920 South 34th Avenue
Hattiesburg, MS 39402-4945
(601-255-5652

Date: July 12, 2019

:

